Court of Appeal. Fourth Appellate District. Division Two
Kevin J. Lane. Clerk/Executive Officer
Electronically FILED on 5/4/2021 by S. Driller. Deputy Clerk

COURT OF APPEAL - STATE OF CALIFORNIA
FOURTH DISTRICT
DIVISION TWO
ORDER
HENRY FREDERICK RAMEY, JR.,
Petitioner,
v.
THE SUPERIOR COURT OF SAN
BERNARDINO COUNTY,
Respondent;
HECTOR PENA GOMEZ,
Real Party in Interest.

E076944
(Super.Ct.Nos. CIVSB2101966
& LLTVA2000547)
The County of San Bernardino

THE COURT
The petition for writ of mandate and request for immediate stay are DENIED.

FIELDS
Acting P. J.
Panel: Fields
Ramirez
McKinster
cc:

See attached list

la

MAILING LIST FOR CASE: E076944
Henry Rainey v. The Superior Court; Hector Gomez
Superior Court Clerk
San Bernardino County
8303 N. Haven Avenue
Rancho Cucamonga, CA 91730
Henry Frederick Ramey Jr.
24784 5th Street
San Bernardino, CA 92410
Michael C Earle
Fast Eviction Service
474 W. Orange Show Road
San Bernardino, CA 92408

2a

Y
. v

FILED
SUPERIOR COURT OF THE STATE OF CALIFC^^ofsan^r^nT
COUNTY OF SAN BERNARDINO
^chocucamongad™
FEB 1 8 2021

APPELLATE DIVISION
8303 N. Haven Avenue 1st Floor
Rancho Cucamonga, CA 91730
(909) 384-1888

CASE NO. CIVSB2101966 / LLTVA2000547 (Fontana)

BY
CHEI

FRANZEN, DEPUTY

DATE: February 18, 2021

HENRY RAMEY,
Petitioner,
v.
ORDER
SUPERIOR COURT FOR THE COUNTY OF
SAN BERNARDiNO,
Respondent,
HECTOR M. PENA GOMEZ,
Real Party in Interest.

The February 11,2021 writ petition is denied.

The Honorable Corey G. Lee and The Honorable Cheryl C. Kersey concur.
>y.

f Cf/-'

y 'A-\

\

(«*!) Lynn M. Ponoin
Presiding Judge of the Appellate Division

CC: Fontana Courthouse

I certify that copies of the above Order were mailed to counsel of record as indicated on

Court Clerk
3a

t.
*■*>

r'

Superior Court £§>tate of California
Count? of H>an Pcrnartrtno
Appellate Division
DECLARATION OF SERVICE BY MAIL

STATE OF CALIFORNIA
COUNTY OF SAN BERNARDINO

)
)
)

Writ # CIVSB2101966
Trial Court# LLTVA2000547

The undersigned hereby declares: I am a citizen of the United States of America, over the
age of eighteen years, a resident of the above-named State, and not a party to nor interested
in the proceedings named in the title of the annexed document. I am a Deputy Appellate
Clerk of said County. I am readily familiar with the business practice for collection and
processing of correspondence for mailing with the United States Postal Service.
Correspondence would be deposited with the United States Postal Service that same day in
the ordinary course of business. On the date of mailing shown below, I placed for collection
and mailing following ordinary business practices, at the request and under the direction of
the Superior Court in and for the State of California and County above-named, whose office
is at the Courthouse, Rancho Cucamonga, California, a sealed envelope which contained a
true copy of each annexed document, and which envelope was addressed to the addressee,
as follows:
HENRY FREDERICK RAMEY, JR
24784 5th'ST
SAN BERNARDINO, CA 92410

FAST EVICTION SERVICE
C/O M C EARLE
474 W. ORANGE SHOW RD
SAN BERNARDINO, CA 92408

FONTANA COURTHOUSE
Date and Place of Mailing: February 18, 2021, Rancho Cucamonga, CA
Document Mailed: ORDER
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 18, 2021, at Rancho Cuc^monga^California

Cjpf- i&j
——t

4a

.Deputy Clerk

SUPREME COURT

FILED

Court of Appeal, Fourth Appellate District, Division Two - No. E076944
S268712

Jorge Navarrete Clerk

IN THE SUPREME COURT OF CALIFORNIA"
En Banc
HENRY FREDERICK RAMEY, JR., Petitioner,
v.
SUPERIOR COURT OF SAtt BERNARDINO COUNTY, Respondent;
HECTOR PENA GOMEZ, Real Party in Interest.
The petition for review and application for stay are denied.

Cantil-Sakauve
ChiefJustice
5a

MAY 1 1 Z0Z1

Deputy

MEMORANDUM OF POINTS AND AUTHORITIES.

1
2
3

COMPLAINT IS BARRED BY THE SERVICE OF THE CDC DECLRATION
TEMPORARILY BARRING EVICTIONS.

4

Defendant Henry Frederick Ramey, Jr., served his CDC Declaration on Plaintiff or

5

October 9 and 12, and November 24, 2020. The purpose of the CDC Declaration is to bar

6

Unlawful Detainer Actions until January 31, 2021. No Unlawful Detainer Action should have

7

been commenced after the Declaration after it was served on Plaintiff.
The

8

9
10

stated

in

https://www.federalreaister.aov/documents/2020/09/Q4/2020-

19654/temporarv-halt-in-residential-evictions-to-prevenHhe-further-spread-of-covid19#footnote-5-p55293, states in part that:

\

“Therefore, under 42 CFR 70.2. subject to the limitations under the
“Applicability” section, a landlord, owner of a residential property, or other person
with a legal right to pursue eviction or possessory action shall not evict any
covered person from any residential property in any State or'U.S! territory in
which there are documented cases of COVID-19 that provides a level of publichealth protections below the requirements listed in this Order.”

11
12
13
14

Order

'

15

Section 502 of the latest COVID Relief Act states:

16

“SEC. 502. EXTENSION OF EVICTION MORATORIUM. The order
issued by the Centers for Disease Control and Prevention under section 361 of
the Public Health Service Act (42 U.S.C. 264), entitled “Temporary Halt in
Residential Evictions To Prevent the Further Spread of COVID-19” (85 Fed.
Reg. 55292 (September 4, 2020) is extended through January 31, 2021,
notwithstanding the effective dates specified in such Order.”

17
18
19
20

Here, this Action is barred.

21
22

III

23

III

24

III

25

III

26

III

27

III

28

Demurrer-Pena Gomez v. Ramey - 3

6a

HENRY FREDERICK RAMEY, JR.
24784 5th St.
San Bernardino, CA., 92410
TEL.: (909) 678-9348
hanksanberdoo@aol.com

1
2
3

HENRY FREDERICK RAMEY, JR.
24784 5th St.
San Bernardino, CA., 92410
TEL.: (909) 678-9348
hanksanberdoo@aol.com

4
5

In Propia Persona

6
7
8

SUPERIOR COURT OF CALIFORNIA,

9

COUNTY OF SAN BERNARDINO.

10
11
12

Case No.: LLTVA 2000547

HECTOR PENA GOMEZ,
Plaintiff,
v.

13
14
15

HENRY FREDERICK RAMEY, JR., DOES 110, inclusive,
Defendants.

DECLARATION OF HENRY FREDERICK
RAMEY, JR., IN OPPOSITION TO THE EXPARTE APPLICATION TO ADVANCE THE
HEARING ON DEMURRER.
Motion Date: Jan. 12, 2021.
Time: 8:30 a. m.
Dept. F6.
Discovery Cut-Off: None.
Motion Cut-Off: None.
Trial Date: None.

16
17

18
19
20
21
22
23
24
25
26
27
28

I, Henry Frederick Ramey, Jr., declare that:
1. lam the Defendant in this Action, and if I am called to testify as a witness, I would
competently and truthfully testify under oath.
2. I am completely opposed to this Application. There is NO urgency for this
Application. This Application is made because Plaintiff and Fast Eviction Service are
TOO GREEDY.
3. This case requires sustaining the Demurrer without leave to amend and Dismissal in

that

both

https://www.federalreqister.qov/documents/2020/09/04/2020-

19654/temporarv-halt-in-residential-evictions-to-prevent-the-further-spread-of-covid19#footnote-5-p55293, and Section 502 of the latest COVID Relief Act both prohibi
Demurrer-Pena Gomez v. Ramey -1

7a

V

%
*

HENRY FREDERICK RAMEY, JR„
24784 5th St.
San Bernardino, CA., 92410
TEL.: (909) 678-9348
hanksanberdoo@aol.com

1

this Action. Then again, both provisions may be extended after January 20, 2021, sc

2

Plaintiff should be told personally that he has to wait until Section 502 expires for

3

him to refile this frivolous Action.

4

4. Because Plaintiff knew that others like former tenant Tyrone Woodman, and his

5

friends, like Jeffery Bukowice and others, stole my scanner, TV, and computer,

6

Plaintiff OWES ME THE FOLLOWING:

7

a. An amount of $276.67 in buying a 40” Hisense Roku T. V. from Walmart on

8
g
10
11
12

August 19, 2020, to replace the stolen 40" Sony HD T. V.
b. An amount of $573.95 in buying an HP Laptop Computer from Office Depot on
August 19, 2020, to replace the stolen Acer Laptop Computer.
c. An amount of $420 in changing the locks from JB Locksmith on August 18,
2020.

13

5. Plaintiff is also required under State law to replace the windows of former tenant

14

Tyrone Woodman’s bedroom under Civil Code §1941.3(A)(2). Because Plaintiff

15

knew about their presence and entered the house through Woodman’s bedroom,

16

he cannot have me evicted because of those unsecured windows.

17

Under the penalty of perjury, under the laws of the State of California, I declare that the

18

foregoing is true and correct, and that this declaration was executed on January 11, 2021, at

19

San Bernardino, California.

20

/

21

/

HENRY FJTE DERICK RAMEY, JFfcf ' ^
Deciaram.

22
23
24
25
26
27
28

Demurrer-Pena Gomez v. Ramey - 2

8a

HENRY FREDERICK RAMEY, JR.,
24784 5th St.
San Bernardino, CA., 92410
TEL.: (909) 678-9348
hanksanberdoo@aol.com

UD-105
CASE NUMBER:

LLTVA 2000547

m. (6) (a) | x I Defendant delivered to plaintiff one or more declarations of COVID-19-related financial distress. (Code Civ.
Proc., § 1179.03(f).) (Describe when and how delivered):
Both the State COVID-19 Declaration and the CDC Declaration was served with the Motion to Quash, and is also
attached to the Answer.

(b) I

I (For cases filed after January 31, 2021) Defendant, on or before January 31,2021, paid or offered plaintiff
payment of at least 25% of the total rental payments that were due between September 1,2020, and January 31,
2021, and that were demanded in the termination notices for which defendant delivered the declarations
described in (a). (Code Civ. Proc., § 1179.03(g)(2).)

(7) | x | Defendant is currently filing or has already filed a declaration of COVID-19-related financial distress with the court.
(Code Civ. Proc., § 1179.03(h).)
n. I x I (For cases filed before February 1, 2021) Plaintiffs demand for possession of a residential tenancy is based on a reason
other than nonpayment of rent or other financial obligations, and plaintiff lacks just cause for termination of the tenancy,
as defined in Civil Code section 1946.2(b) or Code of Civil Procedure section 1179.03.5(a)(3)(A).
o. I

I Plaintiff violated the COVID-19 Tenant Relief Act of 2020 (Code Civ. Proc., § 1179.01 etseq.) or a local COVID-19
-related ordinance regarding evictions in some other way (briefly state facts describing this in item 3s).

p. | x | (For cases filed before January 1, 2021) Defendant provided plaintiff with a declaration under penalty of perjury for the
Centers for Disease Control and Prevention's temporary halt in evictions to prevent further spread of COVID-19 (85
Federal Register 55292 at 55297), and plaintiffs reason for termination of the tenancy is one that the temporary halt in
evictions applies to. (Describe when and how provided):
Both the State COVID-19 Declaration and the CDC Declaration was served with the Motion to Quash, and is also
attached to the Answer.

q. r

I (For cases filed before January 1, 2021) Plaintiff violated the federal CARES Act, because the property is covered by that
act and (check all that apply):

(1) I

I The federally-backed mortgage on the property was in forbearance when plaintiff brought the action. (15 U.S.C. §

9057.)
(2) f~
r.

|

I The plaintiff did not give the required 30 days' notice. (15 U.S.C. § 9058(c).)

| Other defenses and objections are stated in item 3s.

s. (Provide facts for each item checked above, either below, or, if more room needed, on form MC-025):
| x | Description of facts or defenses are on form MC-025, titled as Attachment 3s.

4. OTHER STATEMENTS
a. I

I Defendant vacated the premises on (date):

UD-105 (Rev. December 7, 2020)

ANSWER—UNLAWFUL DETAINEP

9a

Page 3 of4

Appellate Division Case Number:

Appellate Division
Case Name:

RAMEY v. SUPERIOR COURT

CIVSB 2101966

The Parties in the Trial Court Case
(^T) I/My client (check andfill in a or b):
a. E was a party in the case identified in(2).
b. □ was not a party in the case identified in (2) but will be directly and negatively affected in the following way
by the action taken or ruling made by the trial court (describe how you/your client will be directly and
negatively affected by the trial court’s action or riding):

( 7 ) The other party or parties in the case identified in (2) was/were (Jill in the names of the parties)
w HECTOR PENA GOMEZ

Appeals or Other Petitions for Writs in This Case
(^T) Did you or anyone else file an appeal about the same trial court action or ruling you are challenging in this petition?
(Check and fill in a or b):
a. E No
b. □ Yes (fill in the appellate division case number of the appeal):
(^IT) Have you filed a previous petition for a writ challenging this trial court action or ruling? (Check andfill in a or b):
a. E No
b. □ Yes (Please provide thefollowing information about this previous petition).
(1) Petition title (Jill in the title of the petition): __________________________________________________
(2) Date petition filed (Jill in the date you filed this petition): _______________________________________
(3) Case number (fill in the case number of the petition): __________________________________________
Ifyou/your clientfiled more than one previous petition, attach another page providing this information for each
additional petition. At the top of each page, write “APP-15I, item 9. ”)
Reasons for This Petition
@ The trial court made the following legal error or errors when it took the action or made the ruling described in(3)
(check andfill in at least one):
a. E The trial court has not done or has refused to do something that the law says it must do.
(1) Describe what you believe the law says the trial court must do: The Court must dismiss the Unlawful
Detainer Action in that it is proceeding during the CPC Eviction Moratorium that expires on March 31,
2021. THIS IS AN ISSUE OF FIRST IMPRESSION.

(2) Identify the law (the section of the Constitution or statute, published court decision, or other legal
authority) that says the trial court must do this: CPC Eviction Moratorium Extension, dated January 20.
2021.

Revised January 1.2017

Petition for Writ
(Misdemeanor, Infraction, or Limited Civil Case)
10a

APP-151, Page 3 of 7

Appellate Division Case Number:

Appellate Division

CIVSB 2101966

RAMEY v. SUPERIOR COURT

Case Name:

@ (continued)
(3) Identify where in the supporting documents (the record of what was said in the trial court and the
documents from the trial court) it shows that the court did not do or refused to do this:
Minute Order, dated January 12, 2021.

f*l Check here ifyou need more space to describe the reason for your petition and attach a separate page
or pages describing it. At the top of each page, write “APP-151, item 10a. "
b. ® The trial court has done something that the law says the court cannot or must not do.
(1) Describe what the trial court did: The Court must dismiss the Unlawful Detainer Action in that it is____
proceeding during the CPC Eviction Moratorium that expires on March 31,2021. THIS IS AN ISSUE OF
FIRST IMPRESSION.

(2) Identify where in the supporting documents (the record of what was said in the trial court and the
documents from the trial court) it shows that the court did this: Minute Order, dated January 12, 2021.

(3) Identify the law (the section of the Constitution or statute, published court decision, or other legal
authority) that says the trial court cannot or must not do this: The Court must dismiss the Unlawful
Detainer Action in that it is proceeding during the CDC Eviction Moratorium that expires on March 31,
2021.
0 Check here ifyou need more space to describe the reason for your petition and attach a separate page
or pages describing it. At the top of each page, write “APP-151, item 10b. "
c. ® The trial court has performed or said it is going to perform a judicial function (like deciding a person’s
rights under law in a particular situation) in a way the court does not have the legal power to do.
(1) Describe what the trial court did or said it is going to do: The Court must dismiss the Unlawful Detainer
Action in that it is proceeding during the CDC Eviction Moratorium that expires on March 31,2021. THIS
IS AN ISSUE OF FIRST IMPRESSION.

(2) Identify where in the supporting documents (the record of what was said in the trial court and the
documents from the trial court) it shows that the court did or said it was going to do this:
Minute Order, dated January 12, 2021.

Revised January 1.2017

Petition for Writ
(Misdemeanor, Infraction, or Limited Civil Case)

11a

APP-151, Page 4 of 7

Appellate Division
RAMEY v. SUPERIOR COURT
Case Name:

Appellate Division Case Number:

CIVSB 2101966

@ (continued)
(3) Identify the law (the section of the Constitution or statute, published court decision, or other legal
authority) that says the trial court does not have the power to do this:
The Court must dismiss the Unlawful Detainer Action in that it is proceeding during the CDC Eviction
Moratorium that expires on March 31, 2021.

0 Check here ifyou need more space to describe this reason for your petition and attach a separate page
or pages describing it. At the top of each page, write “APP-151, item 10c. "
I 1 Check here if there are more reasons for this petition and attach an additional page or pages describing
these reasons. At the top of each page, write “APP-151, item lOd. ”
(Tl) This petition will be granted only if there is no other adequate way to address the trial court’s action or ruling other
than by issuing the requested writ.
a. Explain why there is no way other than through this petition for a writ—through an appeal, for example—for
your arguments to be adequately presented to the appellate division:
The Trial Court lacks jurisdiction to proceed on the Unlawful Detainer Action during the CDC Eviction
Moratorium that expires on March 31, 2021. Neither President Taimp nor President Biden were joking when
they instructed the CDC to issue the Eviction Moratorium. THIS IS AN ISSUE OF FIRST IMPRESSION.
j

b. Explain how you/your client will be irreparably harmed if the appellate division does not issue the writ you are
requesting: The Trial Court will hold a Trial as early as March 16, 2021, to evict Petitioner when the U. S. CDC
issued the Eviction Moratorium to stop Unlawful Detainer Actions to a certain date, presently ending on March
31,2021.

Order You Are Asking the Appellate Division to Make
(12) I request that this court (check and fill in all that apply):
a. ® order the trial court to do the following (describe what, ifanything, you want the trial court to be ordered
to do): To dismiss Case No. LLTVA 2000547.
______

b. 0 order the trial court not to do the following (describe what, ifanything, you want the trial court to be
ordered NOT to do)\ To proceed in any manner in, and therefore dismiss Case No. LLTVA 2000547.

Revised January 1.2017

Petition for Writ
(Misdemeanor, infractimi, or Limited Civil Case)

APP-151, Page 5 of 7

Petitioner alleges:
I. INTRODUCTION.
A. Nature of the Proceeding.
Henry Frederick Ramey, Jr., is the Petitioner to the Petition by him
in Case No. CIVSB 2101966, in effect, seeking review of the Denial of his
Petition for Writ of Mandate as to Case No. LLTVA 2000547, of who
Plaintiff Hector Pena Gomez is the Real Party in Interest (“Real Party in
Interest” or “Real Party”).
The Order Denying the Petition for Writ of Mandate in Case No.
CIVSB 2101966 was made on February 18, 2021. The Order Overruling
the Demurrer Case No. LLTVA 2000547 was entered in the Minutes on
January 12, 2021.
Petitioner sought review as to Case No. LLTVA 2000547, Because
the Centers for Disease Control originally issued its Eviction Moratorium
on September 4, 2020, which was set to expire on December 31, 2020. It
has been extended three times:
1. It was extended by Congress, signed by President Trump, and set
to expire on January 31, 2021.
2. It was extended by the Hon. Dr. Rochelle P. Walensky, M. D.,
M. P. H., Director, Centers for Disease Control, to March 31,
2021.
3. It was again extended by the Hon. Dr. Rochelle P. Walensky, M.
D., M. P. H., Director, Centers for Disease Control, to June 30,
2021.
Yet, Real Party in Interest continues to prosecute the Unlawful
Detainer Action, which is a misdemeanor under Federal Law on the basis
of seeking the February 2020 rent that was paid on March 8, 2021. Because
of the CDC Eviction Moratorium, the Superior Court lacks all jurisdiction
to proceed in Case No. LLTVA 2000547 on May 11, 2021, or any other
date.
Also, the APPELLATE DIVISION SHOULD HAVE BEEN
LISTENING! HELLO?!!! Their action in refusing to hear Petitioner’s in
that Court gave the Superior Court the authority to act in excess of
Petition for Writ of Mandate-Ramey v.
Appellate Division of Superior Court-5

13a

jurisdiction, since they no authority to evict Petitioner in violation of the
CDC Eviction Moratorium.
B. Why Relief By Writ and a Stay are Warranted.
This Court should grant this Petition in that there is a dearth of cases
dealing with the interpretation of the CDC Eviction Moratorium. The Trial
Court lacks jurisdiction to proceed on the Unlawful Detainer Action against
Petitioner during the CDC Eviction Moratorium that expires on now on
June 30, 2021. Neither President Trump nor President Biden were joking
when they instructed the CDC to issue the Eviction Moratorium. THIS IS
AN ISSUE OF FIRST IMPRESSION What doesn’t help is that the
Presiding Judge of the Appellate Division, the Hon. Lynn M. Poncin, is
known to be biased against Unlawful Detainer Defendants, has ignored the
Unlawful Detainer and other laws, and is blatantly disregarding Federal law
in this case. It is time to end the solemn mockery of, and total disregard of
Federal law, and to have the Superior Court dismiss Case No. LLTVA
2000547 as ultra vires.
Petitioner will suffer irreparable injury if this Court does not issue a
Stay of the Order to Show Cause/Jury Trial held on May 11, 2021, in
Department F6 of the Fontana Superior Court in that if Trial is held against
Petitioner and he loses, he would removed by the Sheriff with a Writ of
Possession that would still be illegal under the CDC Eviction Moratorium
and frustrate the Centers for Disease Control and the United States as a
whole DURING THE CORONAVIRUS PANDEMNIC THAT WAS
OTHERWISE FURTHERED AND EXACERBATED BY PRESIDENT
TRUMP.
II. PETITION.
By Verified Petition, Petitioner shows:
1. Real Party Hector Pena Gomez filed his Complaint for Unlawful
Detainer on October 19, 2020, which is included with this Petition
as Exhibit “1”.
2. On December 28, 2020, Petitioner filed his Demurrer to the
Complaint, which is included with this Petition as Exhibit “2”.
Petition for Writ of Mandate-Ramey v.
Appellate Division of Superior Court-6

14a

3. On January 11, 2021, Petitioner filed his Declaration to the ExParte Application to Advance the Hearing on Demurrer, which is
included with this Petition as Exhibit “3”.
4. Also on January 11, 2021, the Trial Court overruled the Demurrer
of Petitioner.
5. On January 29, 2021, Petitioner filed his Answer, which is
included with this Petition as Exhibit “4”.
6. On February 11, 2021, Petitioner filed his Petition for Writ of
Mandate against the Superior Court, which is included with this
Petition as Exhibit “5”.
7. On February 18, 2021, Respondent Court denied the Petition for
Writ of Mandate, which is included with this Petition as Exhibit
“6”.

8. The Petition is timely. Nevertheless, because the Unlawful
Detainer Complaint is still being prosecuted in violation of the
CDC Eviction Moratorium that expires on June 30, 2021, and any
proceeding against Petitioner is void as ultra vires.
9. The Petition should be granted, and a Stay is also warranted in
that unless an appropriate writ is granted, Petitioner will be tried
and may lose on the Unlawful Detainer Complaint and be
removed by the Sheriff on a Writ of Possession in a case where
the Superior Court lacks jurisdiction to hear and proceed in that
the CDC Eviction Moratorium expires on June 30, 2021,
prohibiting all residential evictions until said date. Petitioner has
no adequate remedy at law or equity other than a writ.
WHEREFORE, Petitioner prays that this Court:
1. Issue a peremptory writ in this first instance directing the
Appellate Division of the Superior Court to overturn the Order
Denying the Petition for Writ of Mandate, and to enter an Order
of granting the Petition for Writ of Mandate in favor of
Petitioner;
///

Petition for Writ of Mandate-Ramey v.
Appellate Division of Superior Court-7

15a

MEMORANDUM OF POINTS AND AUTHORITIES.
I.
COMPLAINT IS BARRED BY THE SERVICE OF THE CDC
DECLRATION TEMPORARILY BARRING EVICTIONS.
Petitioner Henry Frederick Ramey, Jr., served his CDC Declaration
on Plaintiff on October 9 and 12, and November 24, 2020. The purpose of
the CDC Declaration is to bar Unlawful Detainer Actions until, now, June
30, 2021. No Unlawful Detainer Action should have been commenced after
the Declaration after it was served on Real Party in Interest.
stated
Order
in
The
https://www.federalregister.gov/documents/2020/Q9/04/202Q19654/temporarv-halt-in-residential-evictions-to-prevent-the-furtherspread-of-covid-19#footnote-5-p55293. states in part that:
t_____■Therefore, under42 CFR 70.2, subject to the
limitations under the “Applicability” section, a landlord,; '
jowner of a residential property, or other person with a legal1
right to pursue eviction or possessory action shall not evict
any covered person from any residential property in any State|
lor U.S. territory in which there are documented cases of
COVID-19 that provides a level of public-health protections
below the requirements listed in this Order.”
Section 502 of the latest COVID Relief Act states:
“SEC.
502.
EXTENSION
OF
EVICTION
MORATORIUM. The order issued by the Centers for
Disease Control and Prevention under section 361 of the
Public Health Service Act (42 U.S.C. 264), entitled
“Temporary Halt in Residential Evictions To Prevent the
Further Spread of COVID-19” (85 Fed. Reg. 55292
(September 4, 2020) is extended through January 31, 2021,
notwithstanding the effective dates specified in such Order.”
The Moratorium has since been extended to March 31, 2021, and
now, June 30, 2021.
Here, this Action is barred.
///

Hi

VLetition for Writ of Mandate-Ramey v.
Appellate Division of Superior Court-10

16a

\

ARGUMENT.
I.
THE COURT OF APPEAL LACKS JURISDICTION IN A
CASE INVOLVING NATIONAL IMPORTANCE IN THAT THE
UNLAWFUL DETAONER COMPLAINT IS BARRED BY THE
SERVICE OF THE CDC DECLRATION TEMPORARILY
BARRING EVICTIONS.
Petitioner Henry Frederick Ramey, Jr., served his CDC Declaration
on Real Party in Interest on October 9 and 12, and November 24, 2020. The
purpose of the CDC Declaration is to bar Unlawful Detainer Actions until,
now, June 30, 2021. No Unlawful Detainer Action should have been
commenced after the Declaration after it was served on Real Party in
Interest. Accordingly, NOBODY IN THE APPELATTE DIVISION NOR
THE COURT OF APPEAL WAS LISTENING.
Petitioner sought review as to Case No. LLTVA 2000547, Because
the Centers for Disease Control originally issued its Eviction Moratorium
on September 4, 2020, which was set to expire on December 31, 2020. It
has been extended three times:
1. It was extended by Congress, signed by President Trump, and set
to expire on January 31, 2021.
V
2. It was extended by the Hon. Dr. Rochelle P. Walensky, M. D.,
M. P. H., Director, Centers for Disease Control, to March 31,
2021.
3. It was again extended by the Hon. Dr. Rochelle P. Walensky, M.
D., M. P. H., Director, Centers for Disease Control, to June 30,
2021.
Yet, Real Party in Interest continues to prosecute the Unlawful
Detainer Action, which is a misdemeanor under Federal Law on the basis
of seeking the February 2020 rent that was paid on March 8, 2021, as part
of Petitioner’s then Chapter 13 Bankruptcy Plan, and which Petitioner
already paid the previous owner Irina Hernandez $450 on April 2, 2020,
pursuant to her Three Day Notice to Pay Rent or Quit. Because of the CDC
Eviction Moratorium, the Superior Court lacks all jurisdiction to proceed in
Case No. LLTVA 2000547 on May 11, 2021, or any other date.
Petition for Review-Ramey v. Appellate Division
of Superior Court-6

17a

L.

Also, the APPELLATE DIVISION AND COURT OF APPEAL
SHOULD HAVE BEEN LISTENING! HELLO?!!! Their action in
refusing to hear Petitioner’s case in those Courts gave the Superior Court
the authority to act in excess of jurisdiction, since they no authority to evict
Petitioner in violation of the CDC Eviction Moratorium.
in
The
Order
stated
https://www.federalregister.gov/documents/2020/09/04/202Qi
19654/temporarv-halt-in-residential-evictions-to-prevent-the-furtherspread-of-covid-19#footnote-5-p55293. states in part that:
_j1'Therefore, under 42 CFR 70.2, subject to the
limitations under the “Applicability” section, a landlord,'
'owner of a residential property, or other person with a legal
right to pursue eviction or possessory action shall not evict
any covered person from any residential property in any State
|or U.S. territory in which there are documented cases of
COVID-19 that provides a level of public-heajth protections'
below the requirements listed in this Order.
Section 502 of the latest COVID Relief Act states:
“SEC.
502.
EXTENSION
OF
EVICTION
MORATORIUM. The order issued by the Centers for
Disease Control and Prevention under section 361 of the
Public Health Service Act (42 U.S.C. 264), entitled
“Temporary Halt in Residential Evictions To Prevent the
Further Spread of COVID-19” (85 Fed. Reg. 55292
(September 4, 2020) is extended through January 31, 2021,
notwithstanding the effective dates specified in such Order.”
The Moratorium has since been extended to March 31, 2021, and
now, June 30, 2021.
Here, this Action is barred.
In addition, Judge Joel, the Judges on the Appellate Division, and
the Justices on the Court of Appeal should be punished by doing Traffic
Court in Counties, such as Modoc or Alpine. Federal law is Supreme under
the Supremacy Clause. Adherence to Federal law is important, and these
are the same type of Judges that ignore California law. See People v. Vivar
(2021 )https://www.courts.ca.gov/opinions/documents/S260270.PDF.
Petition for Review-Ramey v. Appellate Division
of Superior Court-7

18a

Expiration Date 01-31 -2021
{FORM] DECLARATION UNDER PENALTY OF PERJURY FOR
THE CENTERS FOR DISEASE CONTROL AND PREVENTION’S TEMPORARY
HALT IN EVICTIONS TO PREVENT FURTHER SPREAD OF COVID-19
This declaration is for tenants, lessees, or residents of residential properties who are covered by the
CDC’s order temporarily halting residential evictions (not including foreclosures on home
mortgages) to prevent the further spread of COVID-19. Under the CDC’s order you must provide a
copy of this declaration to your landlord, owner of the residential property where you live, or other
person who has a right to have you evicted or removed from where you live. Each adult listed on the
lease, rental agreement, or housing contract should complete this declaration. Unless the CDC order
is extended, changed, or ended, the order prevents you from being evicted or removed from where
you are living through January 31, 2021. You are still required to pay rent and follow all the other
terms of your lease and rules of the place where you live. You may also still be evicted for reasons
other than not paying rent or making a housing payment. This declaration is sworn testimony,
meaning that you can be prosecuted, go to jail, or pay a fine if you lie, mislead, or omit important
information.
I certify under penalty of perjury, pursuant to 28 U.S.C. § 1746, that the foregoing are true and correct:
I have used best efforts to obtain all available government assistance for rent or housing;1
I either expect to earn no more than $99,000 in annual income for Calendar Year 2020-2021
(or no more than $198,000 if filing a joint tax return), was not required to report any income
in 2019 to the U.S. Internal Revenue Service, or received an Economic Impact Payment
(stimulus check) pursuant to Section 2201 of the CARES Act;
I am unable to pay my full rent or make a full housing payment due to substantial loss of
household income, loss of compensable hours of work or wages, lay-offs, or extraordinary2
out-of-pocket medical expenses;
I am using best efforts to make timely partial payments that are as close to the full payment
as the individual’s circumstances may permit, taking into account other nondiscretionary
expenses;

i«
Available government assistance” means any governmental rental or housing payment benefits available to the
individual or any household member.

2 An “extraordinary” medical expense is any unreimbursed medical expense likely to exceed 7.5% of one’s adjusted gross
income for the year.

19a

•

If evicted I would likely become homeless, need to move into a homeless shelter, or need to
move into a new residence shared by other people who live in close quarters because I have
no other available housing options.3

•

I understand that I must still pay rent or make a housing payment, and comply with other
obligations that I may have under my tenancy, lease agreement, or similar contract. I further
understand that fees, penalties, or interest for not paying rent or making a housing payment
on time as required by my tenancy, lease agreement, or similar contract may still be charged
or collected.

•

I further understand that at the end of this temporary halt on evictions on January 31, 2021,
my housing provider may require payment in full for all payments not made prior to and
during the temporary halt and failure to pay may make me subject to eviction pursuant to
state and local laws.

‘ Even if you have provided a declaration to your landlord, the Order does not prevent your landlord from
seeking a hearing, if authorized by State or local law and in accordance with State or local court
procedure, to challenge the truthfulness of your declaration.
I understand that any false or misleading statements or omissions may result in criminal and civil actions
for fines, penalties, damages, or imprisonment.

Date

Signature of Declarant

J “Available housing” means any available, unoccupied residential property, or other space for occupancy in any seasonal
or temporary housing, that would not violate federal, state, or local occupancy standards and that would not result in an
overall increase of housing cost to you.

20a

UNITED STATES CONSTITUTION
ARTICLE VI, CLAUSE II
This Constitution, and the laws of the United States which shall be made in pursuance thereof; and all treaties made, or which
shall be made, under the authority of the United States, shall be the supreme law of the land; and the judges in every state shall be
bound thereby, anything in the Constitution or laws of any State to the contrary notwithstanding.
UNITED STATES CODE
TITLE 42, SECTION 264
(a)PROMULCATION AND ENFORCEMENT BY SURGEON GENERAL

The Surgeon General, with the approval of the Secretary, is authorized to make and enforce such regulations as in his judgment
are necessary to prevent the introduction, transmission, or spread of communicable diseases from foreign countries into the States
or possessions, or from one State or possession into any other State or possession. For purposes of carrying out and enforcing
such regulations, the Surgeon General may provide for such inspection, fumigation, disinfection, sanitation, pest extermination,
destruction of animals or articles found to be so infected or contaminated as to be sources of dangerous infection to human
beings, and other measures, as in his judgment may be necessary.
(b)APPREHENSION, DETENTION, OR CONDITIONAL RELEASE OF INDIVIDUALS

Regulations prescribed under this section shall not provide for the apprehension, detention, or conditional release of individuals
except for the purpose of preventing the introduction, transmission, or spread of such communicable diseases as may be specified
from time to time in Executive orders of the President upon the recommendation of the Secretary, in consultation with
the Surgeon General.fll.
(c)Application of

regulations to PERSONS

ENTERING from FOREIGN COUNTRIES

Except as provided in subsection (d), regulations prescribed under this section, insofar as they provide for the apprehension,
detention, examination, or conditional release of individuals, shall be applicable only to individuals coming into a State or
possession from a foreign country or a possession.
(d)APPREHENSION AND EXAMINATION OF PERSONS REASONABLY BELIEVED TO BE INFECTED

(1) Regulations prescribed under this section may provide for the apprehension and examination of any individual reasonably
believed to be infected with a communicable disease in a qualifying stage and (A) to be moving or about to move from a State to
another State; or (B) to be a probable source of infection to individuals who, while infected with such disease in a qualifying
stage, will be moving from a State to another State. Such regulations may provide that if upon examination any such individual is
found to be infected, he may be detained for such time and in such manner as may be reasonably necessary. For purposes of this
subsection, the term “State” includes, in addition to the several States, only the District of Columbia.
(2)For purposes of this subsection, the term “qualifying stage”, with respect to a communicable disease, means that such
disease—
•c
(A) is in a communicable stage; or
(B) is in a precommunicable stage, if the disease would be likely to cause a public health emergency if transmitted to other
individuals.
(e)PREEMPTION

Nothing in this section or section 266 of this title, or the regulations promulgated under such sections, may be construed as
superseding any provision under State law (including regulations and including provisions established by political subdivisions of
States), except to the extent that such a provision conflicts with an exercise of Federal authority under this section or section 266
of this title.
SECTION 502 OF THE LATEST COVID RELIEF ACT (DECEMBER 2020)
SEC. 502. EXTENSION OF EVICTION MORATORIUM. The order issued by the Centers for Disease Control and Prevention
under section 361 of the Public Health Service Act (42 U.S.C. 264), entitled “Temporary Halt in Residential Evictions To
Prevent the Further Spread of COVID-19” (85 Fed. Reg. 55292 (September 4, 2020) is extended through January 31, 2021,
notwithstanding the effective dates specified in such Order.
CODE OF FEDERAL REGULATIONS
TITLE 42, SECTION 70.2
§ 70.2 Measures in the event of inadequate local control.
Whenever the Director of the Centers for Disease Control and Prevention determines that the measures taken by health
authorities of any State or possession (including political subdivisions thereof) are insufficient to prevent the spread of any of
the communicable diseases from such State or possession to any other State or possession, he/she may take such measures to

21a

prevent such spread of the diseases as he/she deems reasonably necessary, including inspection, fumigation, disinfection,
sanitation, pest extermination, and destruction of animals or articles believed to be sources of infection.
85 FED. REG. 55292
jTherefore, under 42 CFR 70.2. subject to the limitations under the “Applicability" section, a landlord, owner ofli
residential property, or other person with a legal right to pursue eviction or possessory action shall not evict any covered
person from any residential property in any State or U.S. territory in which there arc documented cases ofCOVlD-19
that provides a level of public-health protections below the requirements listed in this OrderJ

22a

